A-27

• [SI]
1/11/2021 Final Order (SCV) “refusing” (according to
the SCV Docket Entry) based on FCCC Order being
for as traffic infraction and misdemeanor case where
no incarceration is imposed.
[SI] “VIRGINIA:
In the Supreme Court of Virginia held at
the Supreme Court Building in the City of
Richmond on Monday the 11th day of January,
2021.
Gregory Shawn Mercer,
against

Appellant,

Record No. 200331
Court of Appeals No. 0135-19-4

Commonwealth of Virginia,

Appellee.

From the Court of Appeals of Virginia
The Court dismisses the petition for appeal filed
in the above-styled case for lack of jurisdiction. . Code
§ 17.1-410(A)(1) and (B).
A Copy,
Teste:
Douglas B. Robelen, Clerk

A-26

Circuit Court No. MI-2018-0001766
Commonwealth of Virginia,

Appellee.

From the Circuit Court of Fairfax County
Before Judges Huff, Russell and Athey
For the reason previously stated in the order
entered by this Court on October 10, 2019, the petition
for appeal in this case hereby is dismissed.1
This order shall be certified to the trial court.
A Copy,
Teste:
Cynthia L. McCoy, Clerk
By:

[Deputy Clerk’s Signature]
Deputy Clerk

1 On October 21, 2019, appellant filed in this
Court a “Motion for Leave to Amend Caption and Add
Necessary Party.” Because the time period for noting
an appeal against Fairfax County has long since
passed, the motion is denied.”

